           HEARING BEFORE THE
      COMMITTEE ON APPROPRIATIONS
   SUBCOMMITTEE ON FINANCIAL SERVICES
        AND GENERAL GOVERNMENT
     U.S. HOUSE OF REPRESENTATIVES


“OVERSIGHT HEARING – INTERNAL REVENUE
              SERVICE”




                  Testimony of
        The Honorable J. Russell George
Treasury Inspector General for Tax Administration

               February 26, 2014

                Washington, D.C.
                                  TESTIMONY
                                      OF
                      THE HONORABLE J. RUSSELL GEORGE
              TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                                   before the
                COMMITTEE ON APPROPRIATIONS, SUBCOMMITTEE ON
                 FINANCIAL SERVICES AND GENERAL GOVERNMENT
                        U.S. HOUSE OF REPRESENTATIVES


                  “OVERSIGHT HEARING – INTERNAL REVENUE SERVCE”

                                          February 26, 2014

       Chairman Crenshaw, Ranking Member Serrano, and Members of the
Subcommittee, thank you for the opportunity to testify on our recent work related to the
most significant challenges currently facing the Internal Revenue Service (IRS). These
challenges include providing timely assistance to taxpayers, addressing growing
attempts to commit tax fraud, implementing new laws and programs, and improving tax
compliance efforts—all while operating with a reduced budget.

        The Treasury Inspector General for Tax Administration, also known as TIGTA, is
a nationwide organization located in offices throughout the United States. We are
statutorily mandated to provide independent audit and investigative services necessary
to improve the economy, efficiency, and effectiveness of IRS operations, including the
oversight of the IRS Chief Counsel and the IRS Oversight Board. TIGTA’s oversight
activities are designed to identify high-risk systemic inefficiencies in IRS operations and
to investigate exploited weaknesses in tax administration. TIGTA’s role is critical in that
we provide the American taxpayer with assurance that the approximately 93,8001 IRS
employees who collected over $2.9 trillion in tax revenue, processed over 147 million
individual tax returns, and issued $364 billion in tax refunds during Fiscal Year 2013,2
do so in an effective and efficient manner while minimizing the risks of waste, fraud, or
abuse.

       TIGTA’s Office of Audit (OA) reviews all aspects of the IRS tax administration
system and provides recommendations to: improve IRS systems and operations;
ensure the fair and equitable treatment of taxpayers; and prevent and detect waste,
fraud, and abuse. OA places audit emphasis on statutory coverage required by the IRS



1
    Total IRS staffing as of November 2, 2013.
2
    IRS, Management’s Discussion & Analysis, Fiscal Year 2013.
                                                   1
Restructuring and Reform Act of 1998 (RRA 98),3 the American Recovery and
Reinvestment Act of 2009,4 and other laws, as well as areas of concern raised by
Congress, the Secretary of the Treasury, the Commissioner of the IRS, and other key
stakeholders. The OA has examined specific high-risk issues such as identity theft,
refund fraud, improper payments, information technology, security vulnerabilities,
complex modernized computer systems, tax collections and revenue, and waste and
abuse in IRS operations.

        TIGTA’s Office of Investigations (OI) protects the integrity of the IRS by
investigating allegations of IRS employee misconduct, external threats to employees
and facilities, and attempts to impede or otherwise interfere with the IRS’s ability to
collect taxes. Misconduct by IRS employees manifests itself in many ways, including
extortion, theft, taxpayer abuses, false statements, financial fraud, and identity theft. OI
places a high priority on its statutory responsibility to protect all IRS employees located
in over 670 facilities nationwide. In the last four years, threats directed at the IRS have
become the second largest component of OI’s work. Physical violence, harassment,
and intimidation of IRS employees continue to pose significant challenges to the
implementation of a fair and effective system of tax administration. The OI is committed
to ensuring the safety of IRS employees and the security of IRS facilities.

        For FY 2013, TIGTA has recovered, protected, and identified monetary benefits
totaling $16.6 billion, including cost savings, increased revenue, revenue protection, and
court-ordered settlements in criminal investigations.

KEY CHALLENGES FACING THE IRS

       In this section of my testimony, I will discuss several of the most significant
challenges now facing the IRS as it administers our Nation’s tax laws, as the
Subcommittee has requested.




3
  Pub. L. No. 105-206, 112 Stat. 685. 1998 (codified as amended in scattered sections of 2 U.S.C., 5
U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49
U.S.C.).
4
  Pub. L. No. 111-5, 123 Stat. 115. 2009.
                                                    2
TAXPAYER SERVICE

       Providing quality customer service is the IRS’s first step to achieving taxpayer
compliance. One of Congress’ principal objectives in enacting the RRA 98 was to
mandate that the IRS do a better job of meeting the needs of the taxpayers. In the
past, TIGTA has evaluated the IRS’s efforts in providing quality customer service,
providing recommendations for areas of improvement. Although the IRS has
implemented certain procedures to better assist the American taxpayer, funding
reductions pose a significant challenge.

        As a result of the Balanced Budget and Emergency Deficit Control Act, 5 the IRS
was required to reduce planned spending from its appropriated accounts by
$594 million for FY 2013. The IRS was also required in FY 2013 to reduce planned
spending from its appropriated accounts by $24 million as the result of an
across-the-board rescission.6 These funding reductions represent a total decrease of
$618 million to the IRS’s budget of $11.8 billion, resulting in a revised annual budget of
$11.2 billion. Overall, the IRS’s FY 2013 budget was over $1 billion less than its
FY 2010 budget as a result of the FY 2013 rescission and sequestration 7 and declines
in its FY 2011 and FY 2012 budgets.

        These continuing budget constraints make it difficult for the IRS to effectively
assist taxpayers. As demand for taxpayer services continues to increase, resources
have decreased, thereby affecting the quality of customer service that the IRS is able to
provide. I would like to provide you with some specific examples.

       First, the IRS continues to struggle in providing high quality customer service
over the phone. These struggles result in long customer wait times, customers
abandoning calls, and customers redialing the IRS toll-free telephone lines8 for service.
Despite other available options, most taxpayers continue to use the telephone as the
primary method to make contact with the IRS. In September 2013, TIGTA reported9
that IRS assistors, as of May 4, 2013, answered approximately 15.6 million calls and


5
  Pub. L. No. 112-25, 125 Stat. 240. 2011.
6
  A rescission cancels part of an agency’s discretionary budget authority and is usually established as a
percentage reduction to the budget authority.
7
  Sequestration involves automatic spending cuts of approximately $1 trillion from FY 2013 through
FY 2021 across the Federal Government that took effect on March 1, 2013.
8
  The IRS refers to the suite of 29 telephone lines to which taxpayers can make calls as “Customer
Account Services Toll-Free.”
9
  TIGTA, Ref. No. 2013-40-124, Late Legislation Delayed the Filing of Tax Returns and Issuance of
Refunds for the 2013 Filing Season (Sep. 2013).
                                                     3
achieved an approximate 70 percent Level of Service with an Average Speed of Answer
of approximately 14 minutes.10 The IRS plans to provide a 72 percent Level of Service
for FY 2014. As of February 1, 2014, approximately 8.8 million taxpayers had contacted
the IRS by calling the various customer service toll-free telephone assistance lines. IRS
assistors have answered 2.1 million calls and have achieved a 75 percent Level of
Service with a 12 minute Average Speed of Answer.

        Second, the IRS’s ability to process taxpayer correspondence in a timely manner
has also declined. Assistors who answer the toll-free telephone lines also handle
taxpayer correspondence (including processing amended tax returns and working
identity theft cases). During the filing season when call demand is usually at its highest,
more resources are shifted to the telephones to answer calls, and correspondence
inventory processing is placed on hold until call demand subsides. As call volumes
have increased and assistors have been moved to answer telephone calls, the backlog
of paper correspondence inventories has substantially increased. This correspondence
inventory rose from approximately 628,000 at the end of FY 2010 to almost 2.7 million
at the end of FY 2013, representing an increase of nearly 330 percent.

        Third, the number of taxpayers assisted by Taxpayer Assistance Centers (TACs)
will decrease this fiscal year. Each year, many taxpayers seek assistance from one of
the IRS’s 386 walk-in offices, called TACs. The IRS assisted over 6.5 million taxpayers
in FY 2013 and plans to assist 5.6 million taxpayers in FY 2014, which is 14 percent
fewer than in FY 2013. Budget cuts and the IRS’s strategy of not offering services at
TACs that can be obtained from other service channels, such as the IRS’s website, will
reduce the number of taxpayers the IRS plans to assist at TACs. In FY 2014, the
primary service performed at TACs will consist of answering taxpayers’ inquiries about
their tax accounts.

        In FY 2014, TACs will no longer prepare tax returns, provide tax transcripts, or
provide the status of tax refunds. In addition, TAC assistors will answer only basic tax
law questions during the filing season and will not answer any tax law questions outside
of the filing season. Taxpayers will be referred to Volunteer Income Tax Assistance
sites for free tax return preparation or to applications on the IRS’s public website to
obtain the other services that TACs are no longer providing. For example, tax
transcripts can be obtained using the new online “Get Transcript” application; refund
status checks can be performed using the “Where’s My Refund” application; and




10
  The average amount of time for an assistor to answer the call after the call is routed to a call center
staff.
                                                      4
taxpayers can obtain answers to basic tax law questions from the Interactive Tax
Assistance application.

        The IRS also assists taxpayers who have been victimized by identity theft. In
September 2013, we issued a follow-up report on this issue.11 Our review evaluated a
statistically valid sample of 100 identity theft tax accounts (cases) closed
August 1, 2011 through July 31, 2012. We determined that the IRS identified the
rightful owner of the Social Security Number in all cases. However, taxpayers
continued to face long delays in having their cases resolved. For the 100 cases
reviewed, the IRS took an average of 312 days to resolve the case with inactivity
(i.e., no work was being performed to resolve the case) averaging 277 days.

IMPROPER PAYMENTS

        The Improper Payments Information Act of 200212 requires Federal agencies,
including the IRS, to estimate the amount of improper payments made each year.
Agencies must report to Congress on the causes of and the steps taken to reduce
improper payments and address whether they have the information systems and other
infrastructure needed to reduce improper payments. The Improper Payments
Elimination and Recovery Act of 2010 13 amended the Improper Payments Information
Act of 2002 by redefining the definition of improper payments and strengthening
agency reporting requirements. TIGTA is required to review annually the IRS’s
compliance with the Act’s reporting requirements.

        The first step in an agency’s estimation of improper payments is to conduct
annual improper payment risk assessments to identify programs at risk for significant
improper payments. TIGTA has reported that the risk assessment process performed
annually by the IRS may substantially underestimate the amount of improper payments
in tax administration. Specifically, the IRS performed a risk assessment of 15 revenue
program funds selected by the Department of the Treasury to evaluate the risk of
improper payments. Revenue program funds represent specific individual credits or
payments (line items on the tax returns). In January 2013, we reported that, although
the IRS completed its Fiscal Year 2011 risk assessments, the method used does not
fully consider the risks associated with tax refund payments. 14 As a result, the IRS



11
   TIGTA, Ref. No. 2013-40-129, Case Processing Delays and Tax Account Errors Increased Hardship for
Victims of Identity Theft (Sep. 2013).
12
   Pub. L. No. 107-300, 116 Stat. 2350.
13
   Pub. L. No. 111-204, 124 Stat. 2224.
14
   TIGTA, Ref. No. 2013-40-015, Improper Payments Elimination and Recovery Act Risk Assessments of
Revenue Programs Are Unreliable (Jan. 2013).
                                                 5
does not have a reliable assessment of the risk of improper payments in its revenue
program funds. For each of the 15 revenue program funds reviewed, the IRS identified
that the fund had a low risk for improper payments. The only program the IRS has
designated as high risk is the Earned Income Tax Credit (EITC) Program.

        However, prior TIGTA reports indicate that the risk of improper payments for
some of these program funds could in fact be significant enough to warrant reporting
and tracking under the Improper Payments Information Act of 2002. For example, we
reported in September 2011 that the IRS may have erroneously allowed approximately
$3.2 billion in American Opportunity Tax Credits. 15 Moreover, other issues, such as
insufficient verification of identity or income, can also pose a significant risk for
improper payments. Yet the risk of these types of improper payments is not estimated
by the IRS despite prior TIGTA reports which indicate that this risk could be significant.
Improper payments due to identity theft are the most significant example of a category
that is not estimated by the IRS. As such, we believe the IRS’s identification of EITC
as the only high risk of improper payments may significantly underestimate the risk of
improper payments to tax administration.

        In addition to the EITC, the IRS administers numerous other refundable tax
credits.16 The number of these credits has varied over time because some credits are
available for a limited period that is set by law. Refundable credits were designed to
help low-income individuals reduce their tax burden or to provide incentives for other
activities. The EITC, created in 1975, 17 is used to offset the impact of Social Security
taxes on low-income families and to encourage them to seek employment. Congress
later created the Child Tax Credit and the Additional Child Tax Credit (ACTC)18 to
reflect a family’s reduced ability to pay taxes as family size increases. Other
refundable credits provide incentives for specific activities, such as obtaining a college
education or purchasing health insurance. For example, the American Opportunity Tax
Credit allows individuals to receive a credit for higher education expenses. More




15
   TIGTA, Ref. No. 2011-41-083, Billions of Dollars in Education Credits Appear to Be Erroneous
(Sep. 2011).
16
   The maximum benefit an individual will receive if a nonrefundable credit is claimed inappropriately is to
fully offset his or her tax liability resulting in the individual owing nothing. Refundable credits do not have
such limitations. Refundable credits can result in tax refunds even if no income tax is withheld or paid;
that is, the credits can exceed the tax liability.
17
   Tax Reduction Act of 1975 § 204, 26 U.S.C § 32.
18
   The ACTC is the refundable portion of the Child Tax Credit. This credit phases out for taxpayers
depending upon their income level. Taxpayers with earned income of less than $3,000 may be eligible for
a refundable credit if they have three or more qualifying children and have paid Social Security taxes that
exceed their EITC.
                                                       6
recently, the Patient Protection and Affordable Care Act 19 and the Health Care and
Education Reconciliation Act of 2010 (Affordable Care Act) includes the Premium Tax
Credit that provides for a tax credit beginning in Tax Year (TY) 2014 to offset an
individual’s health insurance expenses.

       Although refundable credits provide benefits to individuals, the unintended
consequence of these credits is that they can result in the issuance of improper
payments and can be the targets of unscrupulous individuals who file erroneous claims
for these credits.

         I would now like to highlight some of our work relating to the refundable credits
still in existence, providing improper payment estimates and amounts when available;
the IRS’s actions to address these improper payments; and recommendations we have
made to reduce these payments.

      Earned Income Tax Credit – The IRS continues to report that more than 20
percent of EITC payments are issued improperly each year. In FY 2013, the IRS
estimates it issued between $13 and $15 billion in improper EITC payments.

        The IRS is unlikely to achieve any significant reduction in EITC improper
payments despite having implemented numerous processes to identify and prevent
such payments. For FY 2013, the IRS reported that its efforts protected approximately
$4 billion in erroneous EITC payments and identified more than 10,000 paid tax return
preparers who were not complying with EITC due diligence requirements. 20 Although
significant amounts of the EITC are being protected, the IRS has made little
improvement in reducing improper EITC payments as a whole since it has been
required to report estimates of these payments to Congress. The IRS acknowledged in
its Fiscal Year 2012 Improper Payment report to TIGTA 21 that further reductions in the
EITC improper payment rate will be difficult to achieve.




19
   Pub. L. No. 111-148, 124 Stat. 119 (2010) (codified as amended in scattered sections of U.S. Code),
as amended by the Health Care and Education Reconciliation Act of 2010, Pub. L. No. 111-152, 124 Stat.
1029.
20
   Due diligence requirements require paid tax return preparers to gather, verify, and maintain specific
information when filing a tax return claiming the EITC.
21
   IRS, Report on Earned Income Tax Credit (EITC) Improper Payments Executive Order 13520:
Reducing Improper Payments (March 14, 2013).
                                                   7
        However, we have conducted a number of audits that have identified specific
actions that the IRS could take to reduce EITC improper payments. 22 While the IRS
has implemented some of our recommendations, it has not taken action to address key
recommendations aimed at preventing or reducing improper EITC payments. For
example, we reported in December 2008 23 that the IRS did not have the resources
needed to examine each of the potentially erroneous claims it identifies, resulting in the
majority of the improper claims being paid. We recommended that the IRS conduct a
study to identify alternative processes that would expand its ability to effectively and
efficiently identify and adjust erroneous EITC claims. This included working with the
Assistant Secretary of the Treasury for Tax Policy to obtain authority for an improved
process that can make use of its success in combining external data with filters that
identify EITC claims as likely being erroneous. The IRS agreed with our
recommendation and also agreed to work with the Assistant Secretary of the Treasury
for Tax Policy to obtain the authority necessary to implement alternative compliance
processes. However, the IRS’s FY 2012 EITC Improper Payment report to TIGTA
indicated that it has not taken any steps to identify or implement alternative compliance
methods.

       The IRS estimates that two-thirds of EITC claims are prepared with the
assistance of paid tax return preparers. As such, the IRS established the Return
Preparer Program and began implementing new preparer requirements in FY 2011.
These requirements include: 1) requiring all individuals who sign a tax return as a paid
tax return preparer to register and obtain a Preparer Tax Identification Number (PTIN);
and 2) establishing competency testing for all paid tax return preparers. The IRS
stated in its 2012 report to TIGTA on EITC improper payments that the regulation of tax
preparers will drive increased EITC compliance, decrease fraud, and reduce the
improper payment rate.

      There have been some legal challenges to these new tax preparer regulations.
The U. S. Court of Appeals for the Eleventh Circuit recently held that the IRS has the



22
   TIGTA, Ref. No. 2005-40-133, Administration of the Earned Income Tax Credit Program Has Improved,
but Challenges Continue (Aug. 2005); TIGTA, Ref. No. 2006-40-103, Controls Can Be Improved to
Ensure Advance Earned Income Credit Reported on Individual Income Tax Returns Is Accurate
(July 2006); TIGTA, Ref. No. 2009-40-024, The Earned Income Tax Credit Program Has Made
Advances; However, Alternatives to Traditional Compliance Methods Are Needed to Stop Billions of
Dollars in Erroneous Payments (Dec. 2008); TIGTA, Ref. No. 2010-41-116, Actions Can Be Taken to
Improve the Identification of Tax Return Preparers Who Submit Improper Earned Income Tax Credit
Claims (Sep. 2010).
23
   TIGTA, Ref. No. 2009-40-024, The Earned Income Tax Credit Program Has Made Advances;
However, Alternatives to Traditional Compliance Methods Are Needed to Stop Billions of Dollars in
Erroneous Payments (Dec. 2008).
                                                 8
authority to charge a user fee for tax return preparers to obtain and renew a PTIN. 24
However, in another case, the U. S. Court of Appeals for the District of Columbia
affirmed the lower court’s ruling that the IRS does not have the authority to issue a
regulation requiring registration, examination and continuing education for tax return
preparers.25

       Despite the court’s ruling in the District of Columbia case, the IRS has penalty
authority that can be used to reduce EITC improper payments. Beginning with the
2012 Filing Season, paid tax return preparers who prepare a tax return claiming the
EITC must include Form 8867, Paid Preparer’s Earned Income Credit Checklist, with
the tax return. Preparers who do not adhere to this requirement can be assessed a
$500 due diligence penalty for each tax return they submit without the required
Form 8867. However, we found that the IRS has yet to implement the expanded EITC
due diligence penalties.

        We reported in September 2013 26 that many paid tax return preparers continue
to not comply with EITC due diligence requirements. As of May 2, 2013, we identified
708,298 tax returns claiming more than $2 billion in the EITC where the IRS
determined that the tax return preparer either did not include the required Form 8867 or
included an incomplete Form 8867. We reported similar noncompliance by paid tax
return preparers during the 2012 Filing Season.27 As of May 3, 2012, there were
almost 534,000 tax returns with EITC claims totaling more than $1.5 billion that were
filed without the required Form 8867.

        As of November 13, 2013, the IRS stated that it was considering a number of
options for assessing the due diligence penalty but had not yet determined how to
proceed. The IRS indicated that its goal is to assess applicable penalties before the
next filing season based on time and resources. A lack of an effective process to
assess these penalties is of concern as the IRS continues to report billions of dollars in
improper EITC payments each year.




24
   Brannen v. United States, 682 F.3d 1361 (11th Cir. 2012).
25
   Loving v. Internal Revenue Service, 2014 U.S. App. LEXIS 2512 (D.C. Cir. Feb. 11, 2014),
aff’g 917 F. Supp.2d 67 (D.D.C. 2013).
26
   TIGTA, Ref. No. 2013-40-124, Late Legislation Delayed the Filing of Tax Returns and Issuance of
Refunds for the 2013 Filing Season (Sep. 2013).
27
   TIGTA, Ref. No. 2012-40-119, The Majority of Individual Tax Returns Were Processed Timely, but Not
All Tax Credits Were Processed Correctly During the 2012 Filing Season (Sep. 2012).
                                                  9
        Additional Child Tax Credit – In 2009, we reported a significant increase in
ACTC claims by filers who were ineligible or unable to obtain a Social Security
Number.28 These individuals are not authorized to work in the United States and filed
tax returns using an Individual Taxpayer Identification Number (ITIN). 29 The ACTC
claims made by these filers have grown substantially. While ITIN filers are no longer
eligible to claim the EITC, ITIN filers can claim the ACTC.

        For Processing Year30 2005, a total of 796,000 ITIN filers claimed ACTCs
totaling $924 million. This grew to 2.3 million ITIN filers who claimed ACTCs totaling
$4.2 billion for Processing Year 2010. The increase was due in part to changes in the
law which increased the amount of the ACTC that can be claimed as well as making
more individuals eligible for the credit. Our review of these claims found that a
significant number of ITIN filers are filing multiple claims to obtain the ACTC for prior
year tax returns (e.g., filing returns for TYs 2007, 2008, and 2009 at the same time).
For example, in Processing Year 2010, approximately 238,000 ITIN filers submitted
more than 608,000 tax returns for multiple years at the same time and claimed more
than $1 billion in ACTCs on those returns. 31

        With this increase in claims for the ACTC, there has also been an increased
demand for ITINs in order to file these returns. For Fiscal Year 2011, the IRS
processed more than 2.2 million ITIN applications.32 Along with the increased demand
for ITINs comes an increased risk that individuals may submit questionable
applications to obtain an ITIN for use in filing a tax return to erroneously claim the
ACTC. In July 2012, we reported that the ITIN application review and verification
process was so deficient that there was no assurance that ITINs were not being
assigned to individuals who submitted questionable applications.33 This, in turn, could
allow individuals to use these ITINs to file tax returns to commit tax refund fraud.




28
   TIGTA, Ref. No. 2009-40-057, Actions Are Needed to Ensure Proper Use of Individual Taxpayer
Identification Numbers and to Verify or Limit Refundable Credit Claims (Mar. 2009).
29
   An Individual Taxpayer Identification Number is available to individuals who are required to have a
taxpayer identification number for tax purposes, but do not have and are not eligible to obtain a Social
Security Number because they are not authorized to work in the United States.
30
   The calendar year the tax return or document is processed by the IRS.
31
   TIGTA, Ref. No. 2011-41-061, Individuals Who Are Not Authorized to Work in the United States Were
Paid $4.2 Billion in Refundable Credits (July 2011).
32
   ITIN processing uses the full-time equivalent of 463 IRS employees.
33
   TIGTA, Ref. No. 2012-42-081, Substantial Changes Are Needed to the Individual Taxpayer
Identification Number Program to Detect Fraudulent Applications (July 2012).
                                                   10
        In a May 2013 follow-up review,34 we reported that the IRS initiated corrective
actions to address the majority of recommendations included in our prior audit report.
These actions significantly improved the identification of questionable ITIN
applications. After the new procedures were put into place, the number of applications
rejected as questionable increased from 226,011 for the period July through December
2011 to 340,659 for the same period in 2012. In Processing Year 2013, the number of
ITIN filers claiming the ACTC decreased to 1.8 million ITIN filers claiming $3.9 billion in
ACTC.

        We are currently conducting an audit to assess the IRS’s efforts to identify and
address the causes of EITC and ACTC improper payments, and to evaluate the IRS’s
efforts to identify alternative processes to address improper EITC refunds in response
to our recommendation. We plan to issue a report later in Fiscal Year 2014. 35

       American Opportunity Tax Credit – The Recovery Act amended the Hope
Scholarship Credit36 to allow a refundable tax credit — called the American Opportunity
Tax Credit (AOTC). The AOTC allowed individuals to receive a credit for higher
education expenses up to $2,500 per student per year for TYs 2009 and 2010, with up
to $1,000 being refundable. The American Taxpayer Relief Act of 201237 subsequently
extended the AOTC through December 31, 2017.

       As part of our Recovery Act oversight, we reported in September 2011 38 that the
IRS lacked effective processes to identify taxpayers who claim erroneous education
credits. As a result, 2.1 million taxpayers received a total of $3.2 billion in education
credits ($1.6 billion in refundable credits and $1.6 billion in nonrefundable credits) that
appeared to be erroneous. Each of these taxpayers claimed students for whom there
was no associated Form 1098-T, Tuition Statement,39 in IRS files to substantiate the
student’s attendance at an educational institution. We have recently initiated a



34
   TIGTA, Ref. No. 2013-40-052, Review and Verification of Individual Taxpayer Identification Number
Applications Has Improved, However, Additional Processes and Procedures Are Still Needed (May 2013).
35
   TIGTA, Audit No. 201340031, Efforts to Reduce Erroneous Refundable Child-Based Tax Credit
Payments, report planned for March 2014.
36
   The Hope Scholarship Credit was established to assist middle-class families with the costs associated
with a college degree.
37
   Pub. L. No. 112-240,126 Stat. 2319 (2013).
38
   TIGTA, Ref. No. 2011-41-083, Billions of Dollars in Education Credits Appear to Be Erroneous
(Sep. 2011).
39
   Institutions of higher education are required to provide each student with a Form 1098-T, Tuition
Statement, that reports payments received or amounts billed for qualified tuition and related expenses,
scholarships and grants given, adjustments made for a prior year, and the name and location of the
institution. Educational institutions are required to provide a Form 1098-T to students who attend their
institution and a duplicate copy to the IRS.
                                                  11
follow-up review to assess the IRS’s efforts to improve the detection and prevention of
erroneous Education Credit claims.40

        Premium Tax Credit – The Affordable Care Act provides for a refundable tax
credit to offset an individual’s health insurance expenses. Beginning in TY 2014, some
low to moderate income individuals eligible to obtain health insurance through one of
the State Exchanges or the Federal Exchange (collectively referred to as the
Exchanges)41 may be eligible for a refundable credit to assist them in paying monthly
insurance premiums. The amount of the credit is determined by an individual’s income
in relation to the Federal poverty level, among other factors. In October 2013, the IRS
began working with the Exchanges to provide a computation of individuals’ estimated
maximum monthly Premium Tax Credit. 42 Individuals can elect the amount of credit
they want advanced. Qualified individuals can elect to either: 1) have the monthly
credit sent directly to their insurance provider as an advanced payment (Advanced
Premium Tax Credit)43 to lower the amount of monthly premiums they would pay
out-of-pocket; or 2) wait to receive the credit when they file their TY 2014 tax return.
The Congressional Budget Office estimates that six million individuals will receive
Premium Tax Credits totaling $16 billion in Calendar Year (CY) 2014.44

       Like other refundable credits, there is a risk for improper payments with the
Premium Tax Credit. For example, Advanced Premium Tax Credits are computed
using a number of factors, including an individual’s projected 2014 income, family size,
etc. The Exchanges rely on information provided by individuals during the application
process as well as information provided by third-parties, including the IRS, to estimate
an individual’s eligibility to receive the credit. However, it is not until the individual files
his or her TY 2014 tax return during CY 2015 that the IRS will know the individual’s
actual income for 2014 and the amount of the tax credit the individual is entitled to
receive.




40
   TIGTA, Audit No. 201440015, Efforts to Identify and Prevent Erroneous Education Credits – Follow-up,
report planned for June 2014.
41
   Exchanges are intended to allow eligible individuals to obtain health insurance, and all Exchanges,
whether State-based or established and operated by the Federal Government, will be required to perform
certain functions.
42
   A refundable tax credit to assist individuals and families in purchasing health insurance coverage
through an Exchange.
43
   An Advanced Premium Tax Credit is paid in advance to a taxpayer’s insurance company to help cover
the cost of premiums.
44 Congressional Budget Office data tables, Effects on Health Insurance and the Federal Budget for the

Insurance Coverage Provisions in the Affordable Care Act—May 2013 Baseline, published May 14, 2013.
                                                  12
       Individuals who receive an Advanced Premium Tax Credit will reconcile the
amount received to the amount of Premium Tax Credit they are eligible to receive
based on their actual 2014 income and family size when they file their 2014 tax return.
Individuals who are eligible to receive the Premium Tax Credit but did not receive an
advanced credit can claim the credit on their 2014 tax return. Individuals who received
more than they were entitled to in the form of an Advanced Premium Tax Credit will be
responsible for repaying all or part of the credit paid. The IRS will assess the additional
credit on the taxpayer’s account and attempt to collect it.

       We have developed a multi-audit strategy to evaluate the IRS’s implementation
of the Premium Tax Credit. To date, we have completed evaluations of the IRS’s
development of needed information systems and the adequacy of the IRS’s plans to
provide customer service to individuals seeking assistance with the Premium Tax
Credit. In September 2013, we reported that a fraud mitigation strategy is not in place
to guide Affordable Care Act systems development, testing, initial deployment, and
long-term operations.45 The IRS informed us that two new systems are under
development that will address Affordable Care Act tax refund fraud risk. However, until
these new systems are successfully developed and tested, TIGTA remains concerned
that the IRS’s existing fraud detection system may not be capable of identifying
Affordable Care Act refund fraud or schemes prior to the issuance of tax refunds.

       Currently, we are in the process of evaluating the accuracy of the IRS’s
computation of the maximum monthly Premium Tax Credit for use by the Exchanges. 46
Future reviews will evaluate the adequacy of the IRS’s controls to verify the accuracy
of Premium Tax Credit claims and will also assess the impact that delayed employer
health insurance reporting will have on the IRS’s ability to verify these claims when tax
returns are processed.

        Fuel Tax Credit – Individual taxpayers may claim credits for Federal excise
taxes paid on fuels used for tax-exempt purposes, such as farming and off-highway
businesses. During Processing Year 2011, approximately $176 million in fuel tax
credits were claimed by individual taxpayers. For the past several years, the IRS has
listed Fuel Tax Credit fraud scams as an example of one of the “Dirty Dozen” tax
scams. In an ongoing audit, we analyzed Form 1040 tax return data and determined
that over 20 percent of tax returns claiming a Fuel Tax Credit of $100 or more had
questionable characteristics, such as little or no reported income from self-employment


45
   TIGTA, Ref. No. 2013-23-119, Affordable Care Act: Improvements Are Needed to Strengthen Systems
Development Controls for the Premium Tax Credit Project (Sep. 2013).
46
   TIGTA, Audit No. 201340335, Affordable Care Act: Accuracy of the Income and Family Size
Verification and Advanced Premium Tax Credit Calculation, report planned for May 2014.
                                                13
or farming.47 We provided IRS management with listings of questionable Processing
Year 2011 and 2012 tax returns claiming the fuel tax credit. As of February 2014, the
IRS has included over 3,600 tax returns in the correspondence examination stream.

IDENTITY THEFT AND TAX REFUND FRAUD

        While refundable tax credits increase the risk of potentially fraudulent tax
refunds, other issues concerning tax administration can also pose a significant risk for
improper payments. For example, the IRS does not have third-party information to
effectively verify income and withholding when tax returns are processed. The IRS is
also challenged with the rapidly growing problem of identity theft tax refund fraud,
including the use of Social Security Numbers of and by prisoners to file false tax
returns, and tax fraud related to the use of stolen Employer Identification Numbers
(EIN).48

Identity Theft

        The IRS has described identity theft as the number one tax scam for 2014.49 The
IRS has made this issue one of its top priorities and has made some progress; however,
significant improvements are still needed.

        As of September 28, 2013, the IRS had identified more than 2.5 million incidents
of identity theft in CY 2013. As of December 31, 2013, the IRS reported that during the
2013 Filing Season it stopped the issuance of more than $10.7 billion in potentially
fraudulent tax refunds associated with over 1.8 million tax returns classified as involving
identity theft.

        In September 2013, TIGTA reported that the impact of identity theft on tax
administration continues to be significantly greater than the amount the IRS detects and
prevents.50 Using the characteristics of tax returns that the IRS has confirmed as
involving identity theft and income and withholding information the IRS received in 2012
late in the filing season and in early 2013, we analyzed TY 2011 tax returns processed


47
   TIGTA, Audit No. 201230024, Fuel Tax Credits, report planned for July 2014.
48
   An EIN is a Federal Tax Identification Number used to identify a taxpayer’s business account. The EIN
is used by employers, sole proprietors, corporations, partnerships, nonprofit associations, trusts and
estates, government agencies, certain individuals, and other types of businesses.
49
   IRS Press Release, IR-2014-16 (February 19, 2014), available at
http://www.irs.gov/uac/Newsroom/IRS-Releases-the-“Dirty-Dozen”-Tax-Scams-for-2014;-Identity-Theft,-
Phone-Scams-Lead-List.
50
   TIGTA, Ref. No. 2013-40-122, Detection Has Improved; However, Identity Theft Continues to Result in
Billions of Dollars in Potentially Fraudulent Tax Refunds (Sep. 2013).
                                                   14
during the 2012 Filing Season and identified approximately 1.1 million undetected tax
returns where the primary Taxpayer Identification Number on the tax return was a
Social Security Number. The undetected tax returns have potentially fraudulent tax
refunds totaling approximately $3.6 billion, which is a decrease of $1.6 billion compared
to the $5.2 billion we reported for TY 2010.51

       In addition, we expanded our TY 2011 analysis to include tax returns where the
primary Taxpayer Identification Number on the tax return is an ITIN. We identified more
than 141,000 TY 2011 tax returns filed with an ITIN that have the same characteristics
as IRS-confirmed identity theft tax returns. Potentially fraudulent tax refunds issued for
these undetected tax returns totaled approximately $385 million, which is in addition to
the approximately $3.6 billion referred to earlier. In total, the IRS could issue potentially
fraudulent refunds of approximately $4 billion annually as a result of identity theft tax
refund fraud.

        A common characteristic of tax returns filed by identity thieves is the reporting of
false income and withholding to generate a fraudulent tax refund. Another aspect to this
problem is that many individuals who are victims of identity theft may be unaware that
their identity has been stolen and used to file fraudulent tax returns. These individuals
are typically those who are not required to file a tax return.52

        The IRS continues to expand its efforts to identify fraudulent tax returns and
prevent the payment of tax refunds by processing all individual tax returns through
identity theft screening filters. These filters look for known characteristics of identity
theft cases to detect fraudulent tax returns before they are processed and before any
tax refunds are issued. In Processing Year 2012, there were 11 filters that identified
approximately 325,000 tax returns and prevented approximately $2.2 billion in
fraudulent refunds from being issued. In Processing Year 2013, the number of filters
increased to approximately 80, which has enhanced the IRS’s ability to identify identity
theft tax refund fraud. As of September 30, 2013, the IRS indicated that it had identified
561,033 tax returns and prevented approximately $2.5 billion in fraudulent tax refunds
from being issued. This represents a 157 percent increase over the number that the
IRS identified for the same period in Processing Year 2012.53



51
   TIGTA, Ref. No. 2012-42-080, There Are Billions of Dollars in Undetected Tax Refund Fraud Resulting
From Identity Theft (July 2012).
52
   Individuals who generally are not required to file a tax return include children, deceased individuals,
elderly, and individuals who earn less than their standard deduction or earn non-taxable income such as
some Social Security benefits.
53
   The IRS indicated that it had identified 218,156 tax returns and prevented approximately $1.5 billion in
fraudulent tax refunds from being issued as of September 30, 2012.
                                                    15
        Tax returns detected by the various expanded filters are held during processing
until the IRS can verify the taxpayers’ identities. IRS employees attempt to contact
these individuals and request information to verify that the individual filing the tax return
is the legitimate taxpayer. If the IRS cannot confirm the filer’s identity, it suspends
processing of the tax return to prevent the issuance of a fraudulent refund.

        In January 2012, the IRS created the Identity Theft Clearinghouse (the
Clearinghouse) within its Criminal Investigation division. The Clearinghouse was
created to accept tax fraud-related identity theft leads from the IRS’s Criminal
Investigation field offices. The Clearinghouse performs research, develops each lead
for the field offices, and provides support for ongoing criminal investigations involving
identity theft. As of September 30, 2013, the Clearinghouse had received 3,962 identity
theft leads that have resulted in the development of 485 investigations.

        Finally, the IRS has significantly expanded the number of tax accounts that it
locks by placing an indicator on the individual’s tax account.54 In Processing Year 2011,
the IRS began locking taxpayers’ accounts where the IRS Master File55 and Social
Security Administration data showed a date of death. The IRS places a unique
identity-theft indicator to lock the individual’s tax account if he or she is deceased.
Electronically filed tax returns using the Social Security Number of a locked account will
be rejected (the IRS will not accept the tax return for processing). Paper tax returns will
be processed; however, the tax returns will not post to the taxpayer’s account due to the
account lock, and a refund will not be issued.

        Between January 2011 and September 2013, the IRS had locked approximately
11 million deceased taxpayer accounts, which will assist the IRS in preventing future
identity theft fraudulent tax refunds from being issued. As of September 30, 2013, the
IRS had rejected 404,490 e-filed tax returns during the 2013 Filing Season.
Additionally, the IRS has prevented the issuance of approximately $10 million in
fraudulent tax refunds since the inception of the lock on paper tax returns. In November
2013, the Chairman of the Senate Finance Committee proposed restricting access to
the Social Security Administration’s public Death Master File, which would help the
IRS’s efforts to reduce tax fraud via the use of a deceased individual’s Social Security
Number.




54
  When an account is locked, tax refunds are not processed.
55
  The IRS database that stores various types of taxpayer account information. This database includes
individual, business, and employee plans and exempt organizations data.
                                                  16
       Despite these improvements, the IRS could continue to expand the use of
characteristics of confirmed identity theft cases to improve its ability to detect and
prevent the issuance of fraudulent tax refunds. As we reported in July 2008,56 July
2012, and again in September 2013, the IRS is not in compliance with direct-deposit
regulations that require tax refunds to be deposited into an account only in the name of
the individual listed on the tax return. Direct deposit, which now includes debit cards,
provides the ability to receive fraudulent tax refunds quickly, without the difficulty of
having to negotiate a tax refund paper check. The majority of the TY 2011 tax returns
we identified with indicators of identity theft (84 percent) involved the use of direct
deposit to obtain tax refunds totaling approximately $3.5 billion. There are indications
that abusive practices are still ongoing. For example, one bank account received 446
direct deposits totaling over $591,000.57

        To improve the IRS’s conformance with direct-deposit regulations and to help
minimize fraud, TIGTA recommended that the IRS limit the number of tax refunds being
sent to the same direct-deposit account. By limiting the number of tax refunds that can
be deposited into the same account, the IRS could minimize losses associated with
fraud. As of December 2013, the IRS is still considering this recommendation, but the
IRS did develop new filters for the 2013 Filing Season to identify and stop tax returns
with similar direct deposit and address characteristics. As of September 26, 2013, the
IRS indicated that it had identified 267,838 tax returns using these filters and prevented
approximately $817 million tax refunds from being issued. We will be initiating a
follow-up review to assess the IRS’s efforts to identify and stop tax returns in the 2013
Filing Season with similar direct deposit and address characteristics.58

       In addition, in January 2013, the IRS implemented a pilot program with the
Department of the Treasury Fiscal Service59 designed to allow financial institutions to
reject direct deposit tax refunds based on mismatches between the account name and
the name on the tax return. Once the refund is identified by the institution, it is sent
back to the Fiscal Service to be routed back to the IRS. As of September 30, 2013,
there have been 20,051 refunds returned from financial institutions totaling more than
$66 million. This is a promising first step in recovering fraudulent tax refunds issued via
direct deposit.



56
   TIGTA, Ref. No. 2008-40-182, Processes Are Not Sufficient to Minimize Fraud and Ensure the
Accuracy of Tax Refund Direct Deposits (Sep. 2008).
57
   TIGTA, Ref. No. 2013-40-122, Detection Has Improved; However, Identity Theft Continues to Result in
Billions of Dollars in Potentially Fraudulent Tax Refunds (Sep. 2013).
58
   TIGTA, Audit No. 201440001, Detection and Prevention of Identity Theft on Individual Tax Accounts –
Follow-Up.
59
   Formerly, the Department of the Treasury Financial Management Service.
                                                  17
         Identifying potential identity theft tax fraud is the first step. Once the IRS
identifies a potential identity theft tax return, it must verify the identity of the individual
filing the return. However, verifying whether the returns are fraudulent will require
additional resources. Using IRS estimates, it would cost approximately $22 million to
screen and verify the more than 1.2 million tax returns that we identified as not having
third-party information on income and withholding. In August 2013, the IRS Principal
Deputy Commissioner testified that more than 3,000 IRS employees are currently
working on identity theft – more than double the number at the start of the previous filing
season.

       Without the necessary resources, it is unlikely that the IRS will be able to work
the entire inventory of potentially fraudulent tax returns it identifies. The IRS selects
only those tax returns for which it can verify the identity of the taxpayer and/or the
income based on available resources. If the IRS does not have the resources to work
the remainder of the potentially fraudulent tax returns it identifies, the refunds for those
returns will be issued. The net cost of failing to provide the necessary resources is
substantial, given that the potential revenue loss to the Federal Government of these
tax fraud-related identity theft cases is billions of dollars annually.

TIGTA Criminal Investigations of Identity Theft and Impersonation Scams

         Identity theft has a negative impact on the economy, and the damage it causes to
its victims can be personally, professionally, and financially devastating. When
individuals steal identities and file fraudulent tax returns to obtain fraudulent refunds
before the legitimate taxpayers file, the crime is tax fraud, which falls within the
programmatic responsibility of IRS Criminal Investigation. TIGTA’s Office of
Investigations focuses its limited resources on investigating identity theft characterized
by any type of IRS employee involvement, the misuse of client information by tax
preparers, or the impersonation of the IRS through phishing60 schemes and other
means. Where there is overlapping jurisdiction, TIGTA and IRS Criminal Investigation
will work together to bring identity thieves to justice.

       Tax fraud-related identity theft extends beyond the borders of the United States
and its possessions. A notable instance of foreign-based identity theft occurred in 2007
when individuals created a phishing site that mimicked the legitimate IRS Free File


60
  Phishing is an attempt by an individual or group to solicit personal and financial information from
unsuspecting users in an electronic communication by masquerading as trustworthy entities such as
government agencies, popular social websites, auction sites, online payment processors, or information
technology administrators.
                                                  18
Alliance site.61 The perpetrator, a Belarusian national, along with his co-conspirators,
collected taxpayer data, altered the tax returns, and caused approximately $200,000 in
stolen refunds to be deposited into bank accounts he controlled.62

        Currently, TIGTA is investigating several cases that involve international identity
theft potentially impacting nearly 30,000 victims with estimated fraudulent tax refund
claims of between $73 million and $148 million. A recent example of this activity
involved TIGTA’s arrest, when he returned to the United States, of a Nigerian foreign
national for aggravated identity theft, wire fraud, and conspiracy charges relating to
fraudulent tax returns. During a subsequent plea agreement, he admitted to using
victim identities to e-file more than 80 fraudulent tax returns requesting more than
$400,000.63 In another example, TIGTA Office of Investigations arrested two subjects in
July 2013 who were involved in a conspiracy to steal patient identities from a
Virginia-based health care facility where they were employed.64 The subjects filed
fraudulent Federal tax returns in the victims’ names attempting to collect more than
$400,000 in fraudulent returns, and “a substantial part of the scheme was committed
from outside the United States and the offense involved sophisticated means.”65 One of
the subjects was sentenced to 57 months of imprisonment and the other sentenced to
81 months of imprisonment.66 Each subject was ordered to make restitution to the IRS
in the amount of $116,404.67

       IRS employees are entrusted with the sensitive personal and financial
information of taxpayers. Using this information to perpetrate a criminal scheme for
personal gain negatively impacts our Nation’s voluntary tax system and it can generate
widespread distrust of the IRS. TIGTA aggressively investigates IRS employees
involved in identity theft-related tax refund fraud and refers these investigations to the
Department of Justice for prosecution. Many of these employees face significant prison
sentences as well as the loss of their jobs if convicted. The following cases highlight
TIGTA’s work in this area.

      In November 2013, TIGTA special agents arrested an IRS Tax Examining
Technician for aggravated identity theft and conspiracy.68 The IRS employee conspired


61
   The Free File Alliance is a nonprofit coalition of industry-leading tax software companies that partnered
with the IRS to help millions of Americans prepare and e-file their Federal tax returns for free.
62
   D. Mass. Plea Agr. filed Jan. 19, 2011; D. Mass. Indict. filed June 23, 2010.
63
   N.D.N.Y. Plea Agr. filed July 11, 2012.
64
   E.D. Va. Arrest Warrant returned July 11, 2013.
65
   E.D. Va. Indict. filed Aug. 7, 2013; E.D. Va. Statement of Facts filed Oct. 11, 2013.
66
   E.D. Va. Judgment filed Jan.13, 2014 and E.D. Va. Judgment filed Jan. 27, 2014.
67
   E.D. Va. Restitution Order filed Jan. 10, 2014 and E.D. Va. Restitution Order filed Jan. 24, 2014.
68
   N.D. Ga. Executed Arrest Warrant dated Nov. 26, 2013.
                                                     19
with another individual to divert a tax refund belonging to another taxpayer by changing
the taxpayer’s mailing address without the taxpayer’s permission, causing a refund of
$595,901 to be mailed to her co-conspirator.69 Further criminal action is pending.

       TIGTA investigated an IRS employee who accessed a family member’s tax
return information that was stored in an IRS database and used that information to file a
false amended tax return. She directed the tax refund generated from the false tax
return to her own address. The IRS employee pled guilty in July 2013 to a criminal
information70 charging her with knowingly and willingly disclosing tax return and return
information collected by the Department of the Treasury to an unauthorized party. 71

        In another case, a former IRS employee was indicted for wire fraud and
aggravated identity theft in October 2013. From at least 2008 through March 2011, the
subject, while an IRS employee, obtained the personal identifiers of individuals without
their consent or knowledge and completed individual Federal tax returns and State tax
returns.72 Using a false identity, the subject of this investigation established an account
with an Internet service provider, an e-mail address in order to submit the false returns
to the IRS and the State of Missouri, and generated fraudulent refunds. She opened
bank accounts with at least six financial institutions in five different States and used the
routing number, account number, and debit card number on the fraudulent returns to
direct payment or credit to accounts she controlled. Through her scheme, the subject
unlawfully acquired approximately $326,260 ($211,474 from the IRS and $114,786 from
the State of Missouri) in fraudulent tax refunds.73

        TIGTA also investigates tax preparers who misuse their clients’ information to
commit identity theft-related refund fraud. For example, TIGTA investigated a tax
preparer who stole the personal identifiers of her clients and filed numerous fraudulent
tax returns without their permission or knowledge. The tax preparer, who was indicted
in April 2013 on charges of aggravated identity theft, wire fraud, mail fraud and false
claims, prepared and filed more than 200 fraudulent tax returns and defrauded the
U.S. Government of more than $1 million in tax refunds. She used the proceeds from
the fraudulently obtained tax returns to purchase 20 real properties in Arizona.74




69
   N.D. Ga. Crim. Compl. dated Nov. 25, 2013.
70
   N.D. Ga. Plea Agr. filed July 11, 2013.
71
   N.D. Ga. Crim. Info. filed June 10, 2013.
72
   W.D. Mo. Indict. filed Oct. 2, 2013.
73
   Id.
74
   S.D. Cal. Indict. filed Apr. 13, 2013.
                                                20
         In another case, TIGTA investigated a tax preparer who stole the personal
identifiers of several individuals and unlawfully disclosed the information to others to
fraudulently obtain tax refunds. According to the indictment, the subject of the
investigation worked as a tax preparer from January 2002 to June 2008. In 2010, he
used the personal identifiers of other individuals to file false income tax returns and
obtain refunds from the IRS. The preparer obtained most of the personal identifiers in
the course of his prior employment as a tax preparer and from other employment
positions he held. He disclosed this information to co-conspirators so they could also
file false income tax returns and obtain refunds from the IRS. The subject and his
co-conspirators ultimately defrauded or attempted to defraud the IRS of at least
$560,000 in tax refunds.75 The subject was sentenced to 15 years in prison and
ordered to pay restitution in the amount of $515,257.75.76

       In addition to these TIGTA investigations, the IRS announced in February 2013
the results of a nationwide effort with the Department of Justice and local
U.S. Attorneys’ offices focusing on identity theft suspects in 32 States and Puerto Rico,
which involved 215 cities and surrounding areas. This joint effort involved 734
enforcement actions related to identity theft and refund fraud, including indictments,
informations, complaints, and arrests.

        Criminals have been impersonating the IRS for years. While the fraud schemes
may change, the motive remains the same: to bilk honest taxpayers out of their
hard-earned money. Scammers and thieves often prey on immigrants and the elderly
and sometimes even resort to threats. For example, in the summer of 2013, TIGTA
began receiving numerous complaints from around the country about suspicious callers
claiming to be IRS employees collecting taxes from recent IRS audits. The callers
demanded that the tax payments be made to pre-paid credit cards and threatened
arrest, suspension of business or driver’s licenses, and even deportation if the callers’
demands were not met. In many cases, the callers became hostile and insulting.
Investigative information indicates that the calls originated from outside the United
States and are likely part of an organized criminal enterprise. To date, the TIGTA
Hotline has received over 15,000 calls related to this scam and it is estimated that the
scheme has resulted in $945,000 in payments made by the victims. TIGTA special
agents are actively investigating these crimes against taxpayers.

       Identity theft and other fraud schemes targeting senior citizens continue to be on
the rise. Sweepstakes and lottery scams, e-mail and phishing scams, and investment


75
     S.D. Cal. Superseding Indict. filed June 19, 2012.
76
     S.D. Cal. Judgment dated May 22, 2013.
                                                      21
scams are among the top ten fraud schemes used by criminals to target seniors.77
TIGTA’s Office of Investigations investigated an individual who, along with his
co-conspirators, engaged in a fraud scheme that specifically targeted senior citizens.
As part of the scheme, a co-conspirator sent e-mails to victims representing that he was
an attorney or foreign government official who was responsible for distributing an
inheritance. The e-mails sent to the unsuspecting victims falsely informed them that
they owed additional taxes to the IRS, or had inherited millions of dollars but needed to
pay processing fees to release the funds. When the victims responded to the e-mails,
the subject of the investigation, or one of his co-conspirators, contacted them by
telephone and e-mail pretending to be someone who could assist them in obtaining the
promised inheritance. The victims were led to believe that these contacts were from
legitimate business people, and were deceived into paying fees in advance of receiving
the inheritance. However, the funds were never used to pay any fees, nor were any
inheritance payments made to the victims. The subject of this investigation was
sentenced to 10 years in prison78 after pleading guilty to an indictment charging him with
15 counts of wire fraud.79

Tax Refund Fraud

        Verification of Income and Withholding

       Access to third-party income and withholding information at the time tax returns
are processed is the most important tool the IRS could use to detect and prevent tax
fraud resulting from the reporting of false income and withholding. While the IRS has
increased its detection of fraudulent tax returns at the time tax returns are processed
and has prevented the issuance of billions of dollars in fraudulent tax refunds, it still
does not have timely access to third-party income and withholding information needed
to make any substantial improvements in its detection efforts.

       Expanded access to the National Directory of New Hires could immediately
provide the IRS with this type of information that could help prevent tax fraud.
Currently, the IRS’s use of this information is limited by law to just those tax returns that
include a claim for the EITC. The IRS has included a legislative proposal for expanded
access to this information in its annual budget submissions for FYs 2010 through 2013


77
   Top Ten Scams Targeting Seniors, National Council on Aging, http://www.ncoa.org/enhance-economic-
security/economic-security-Initiative/savvy-saving-seniors/top-10-scams-targeting.html (last visited Apr. 4,
2013).
78
   C.D. Cal. Judgment and Probation/Commitment Order filed Oct. 21, 2013.
79
   C.D. Cal. Opposition to Defendant’s Ex Parte Application to Continuance of Trial Date filed June 6,
2012; C.D. Cal. Indict. filed Oct. 21, 2009; C.D. Cal. Crim. Complaint filed Aug. 3, 2009; C.D. Cal. Crim.
Minutes Change of Plea filed July 31, 2012.
                                                    22
and has once again included this proposal in its FY 2014 budget submission. In an
effort to combat identity theft, the Chairman of the Senate Finance Committee proposed
in November 2013 granting the IRS authority to use the Department of Health and
Human Services (HHS) National Directory of New Hires to verify employment data.

        Improvements can also be made to the income and verification processes when
tax returns are identified by the IRS as potentially fraudulent. In August 2013, we
reported80 that ineffective income and withholding verification processes are resulting in
the issuance of potentially fraudulent tax refunds. Our review of a random sample of
272 tax returns sent for verification found that ineffective verification processes resulted
in the issuance of the potentially fraudulent tax refunds associated with these tax
returns.

        Prisoner Fraud

        Refund fraud associated with the use of Social Security Numbers of and by
prisoners to file false tax returns remains a significant problem for tax administration.
The IRS informed us that the number of fraudulent tax returns identified by the IRS as
filed using a prisoner SSN has increased from more than 18,000 tax returns in CY 2004
to more than 186,000 tax returns in CY 2011. The refunds claimed on these tax returns
increased from $68 million to $3.7 billion.

        In December 2010, we reported81 that significant problems exist with the IRS’s
efforts to identify the use of Social Security Numbers of and by prisoners to file false tax
returns to commit tax refund fraud. The Inmate Tax Fraud Prevention Act of 200882
provided the IRS with the authority to disclose prisoner tax information to the Federal
Bureau of Prisons. The Homebuyer Assistance and Improvement Act of 201083
expanded that authority to include State Departments of Corrections in July 2010.
However, as of October 2010, the IRS had not completed the necessary agreements to
share prisoner information. As a result, no information had been disclosed to either the
Federal Bureau of Prisons or State Departments of Corrections at that time. In January
2013, the American Taxpayer Relief Act of 201284 provided the IRS with the permanent




80
   TIGTA, Ref. No. 2013-40-083, Income and Withholding Verification Processes are Resulting in the
Issuance of Potentially Fraudulent Tax Refunds (Aug. 2013).
81
   TIGTA, Ref. No. 2011-40-009, Significant Problems Still Exist With Internal Revenue Service Efforts to
Identify Prisoner Tax Refund Fraud (Dec. 2010).
82
   Pub. L. No. 110-428, 122 Stat. 4839.
83
   Pub. L. No. 111-198, 124 Stat. 1356.
84
   Pub. L. No. 112-240, 126 Stat. 2319 (2013).
                                                   23
authority to share information with the Federal Bureau of Prisons or State Departments
of Corrections. As of January 2014, there are still no agreements in place.

         We also found that the review process used by the IRS to compile the 2009
prisoner data file85 lacked managerial oversight to ensure the accuracy and reliability of
this file. This omission is critical because the Prisoner File is used by the IRS to identify
potentially fraudulent prisoner tax returns at the time a tax return is filed and prior to
issuance of the refund. In December 2012, we reported86 the results of a follow-up
review assessing the reliability of the IRS’s Prisoner File. We determined that despite
increased efforts by the IRS to improve the accuracy of the Prisoner File, there were
inaccuracies in the prisoner information, the file contained incomplete records, and not
all prisons reported prisoners. As such, the controls used to ensure that the IRS
identifies fraudulent refunds on tax returns prepared by prisoners were not fully
effective. Most of these issues we identified are beyond the control of the IRS because
the IRS has to rely on information provided by the prisons to identify prisoner-filed tax
returns. Nonetheless, the IRS can do more to ensure that the Prisoner File is accurate
and complete by taking further steps to improve its validation and verification processes.
IRS management agreed to continue to assess the effectiveness of the validation
activities performed on the Prisoner File. We recently initiated a follow-up review87 to
evaluate the effectiveness of the IRS’s corrective actions in response to our prior report
to identify and reduce prisoner fraud.88

        Stolen or Falsely Obtained Employer Identification Numbers

       Individuals attempting to commit tax refund fraud commonly steal or falsely
obtain an EIN to file tax returns reporting false income and withholding. A valid EIN for
the employer must be provided in support of wages and withholding reported on
individual tax returns. Individuals who report wages and withholding on a tax return
must attach a Form W-2, Wage and Tax Statement,89 to a paper-filed tax return to
support the income and withholding reported. For an e-filed tax return, the filer must
input the information from the Form W-2 into the e-filed tax return.


85
   The IRS annually compiles a list of prisoners (Prisoner Data File) from the Federal Bureau of Prisons
and State Departments of Corrections. Various IRS offices and functions use the Prisoner File to prevent
and detect fraud committed by prisoners, including the filing of fraudulent tax returns.
86
   TIGTA, Ref. No. 2013-40-011, Further Efforts Are Needed to Ensure the Internal Revenue Service
Prisoner File is Accurate and Complete (Dec. 2012).
87
   TIGTA, Audit No. 201340016, Prisoner Fraud – Follow-Up, report planned for May 2014.
88
   TIGTA, Ref. No. 2011-40-009, Significant Problems Still Exist With Internal Revenue Service Efforts to
Identify Prisoner Tax Refund Fraud (Dec. 2010).
89
   The IRS requires employers to report wage and salary information for employees on a Form W-2. The
Form W-2 also reports the amount of Federal, State, and other taxes withheld from an employee’s
paycheck.
                                                   24
       TIGTA identified 767,071 TY 2011 e-filed individual tax returns with refunds
based on falsely reported income and withholding using a stolen or falsely obtained
EIN.90 TIGTA estimates that the IRS could issue almost $2.3 billion annually in
potentially fraudulent tax refunds based on these EINs. There were 285,670 EINs used
on these tax returns:

          277,624 were stolen EINs used to report false income and withholding on
           752,656 tax returns with potentially fraudulent refunds issued totaling more
           than $2.2 billion.

          8,046 were falsely obtained EINs used to report false income and withholding
           on 14,415 tax returns with potentially fraudulent refunds issued totaling more
           than $50 million.

      These 767,071 returns with potentially fraudulent refunds issued is in addition to
the approximately 1.2 million undetected TY 2011 tax returns we identified as having
characteristics of an identity theft tax return discussed earlier in our testimony.

       The IRS has developed a number of processes to prevent fraudulent refunds
claimed using stolen and falsely obtained EINs. As previously noted, third-party
information is not available to effectively detect the reporting of false income and
withholding at the time tax returns are processed. Nonetheless, the IRS has both tax
information and other data that can be used to proactively identify tax returns with
income reported using a stolen or falsely obtained EIN. Using these data, the IRS could
have identified 53,169 tax returns with refunds issued totaling almost $154 million that
had income reported with a stolen or falsely obtained EIN. IRS management agreed
with our recommendation to update fraud filters using the tax information and other data
we identified.




90
   TIGTA, Ref. No. 2013-40-120, Stolen and Falsely Obtained Employer Identification Numbers Are Used
to Report False Income and Withholding (Sep. 2013).
                                                 25
IMPLEMENTATION OF THE AFFORDABLE CARE ACT

        The Patient Protection and Affordable Care Act 91 and the Health Care and
Education Reconciliation Act of 2010 (Affordable Care Act) contains an extensive array
of tax law changes that will present many challenges for the IRS in the coming years.
The ACA provisions provide incentives and tax breaks to individuals and small
businesses to offset health care expenses. They also impose penalties, administered
through the tax code, for individuals and businesses that do not obtain health care
coverage for themselves or their employees. The ACA represents the largest set of tax
law changes in more than 20 years and represents a significant challenge to the IRS.

       ACA-related Customer Service

        In December 2013, we issued a report on the IRS’s ACA customer service
strategy,92 which is a collaborative and coordinated effort between the IRS and multiple
Federal and State agencies. The Department of Health and Human Services will serve
as the “public face” for customer service at the Exchanges 93 until Calendar Year 2015.
Individuals who contact the IRS for ACA assistance will be referred to the HHS’s public
website (Healthcare.gov) and toll-free telephone assistance lines. The IRS will also
refer individuals to its own recorded telephone messages and self-assistance tools. In
CY 2015, the IRS will take the lead in providing customer service when individuals
begin filing their 2014 tax returns. The IRS’s customer service strategy includes
sufficient plans to: 1) perform outreach and education; 2) update or develop tax forms,
instructions, and publications; and 3) provide employee training to assist individuals in
understanding the requirement to maintain minimum essential coverage and the tax
implications of obtaining the Premium Tax Credit.

       However, changes in the implementation of ACA tax provisions may result in
increased demand for customer service assistance resulting in more contacts with the
IRS. Depending on the nature of any changes made to ACA tax provisions, the IRS’s
strategy and plans to provide adequate customer service could be affected. In an
attempt to mitigate the effect that implementation changes may have on its ability to
provide adequate customer service, the IRS has developed oversight and monitoring


91
   Pub. L. No. 111-148, 124 Stat. 119 (2010) (codified as amended in scattered sections of U.S. Code),
as amended by the Health Care and Education Reconciliation Act of 2010, Pub. L. No. 111-152, 124 Stat.
1029.
92
   TIGTA, Ref. No. 2014-43-006, Affordable Care Act: The Customer Service Strategy Sufficiently
Addresses Tax Provisions; However, Changes in Implementation Will Create Challenges (Dec. 2013).
93
   Exchanges are intended to allow eligible individuals to obtain health insurance, and all Exchanges,
whether State-based or established and operated by the Federal government, will be required to perform
certain functions.
                                                 26
processes and procedures to alert management at the earliest possible time of actions
that may affect its operations.

       Security Over Federal Tax Data

        The information technology and security challenges for the ACA are
considerable and include implementation of interdependent projects in a short span of
time, evolving requirements, coordination with internal and external stakeholders,
cross-agency system integration, and testing. ACA implementation will have a
significant impact on existing systems, so there must be bandwidth to support all
provisions. Finally, projects must be staffed with personnel who have the required
knowledge and skills to efficiently deploy new technologies. To manage these
challenges, the IRS created a Project Management Office for the ACA within the
Information Technology program area.

        The Exchanges will request income and family size information for each
applicant and their family members who are qualified to apply for health insurance and
will forward the request to the IRS. The Department of Health and Human Services
Data Services Hub provides the connections for the Exchanges and all other Federal
agencies, including the IRS.

       The IRS, using Federal tax data, will determine the applicant’s historical
household income, family size, filing status, adjusted gross income, taxable Social
Security benefits, and other requested information. The IRS will then transmit the
Federal tax data to the HHS Data Services Hub for delivery to the appropriate
Exchange. The Exchanges will compare the IRS information with the information
provided by the applicant and other available data.

       TIGTA issued a report on the IRS Income and Family Size Verification Project
and found that the project was on schedule and the IRS was managing known
information technology risks at the time the audit was conducted. 94 TIGTA
recommended that the IRS: 1) improve the management of ACA changes to
requirements; and 2) use an integrated suite of automated tools to manage ACA
requirements and application test cases.




94
  TIGTA, Ref. No. 2013-23-034, Affordable Care Act: The Income and Family Size Verification Project:
Improvements Could Strengthen the Internal Revenue Service’s New Systems Development Process
(Mar. 2013).
                                                 27
        TIGTA remains concerned about the protection of confidential taxpayer data that
will be provided to the Exchanges. The Federal tax data provided to HHS and the
Exchanges will be protected through the IRS’s Safeguard Review Program. TIGTA is
currently conducting an audit of the IRS’s Safeguard Review Program and will issue a
report on its operations in Fiscal Year 2014. 95 TIGTA has concerns that the Safeguard
Review Program may lack sufficient staffing or funding to adequately expand its
operations to include the addition of the Federal and State Exchanges.

       Protection Against Fraudulent ACA Claims on Tax Returns

        The Exchanges will use the income and family size information received from
the IRS as well as information provided by the applicant and other data sources in
finalizing the income amounts and family size. TIGTA is currently evaluating the
accuracy of the data that the IRS provides to the HHS for use in enrolling individuals
and calculating the Advanced Premium Tax Credit, and plans to issue a report this
year.96 We plan to assess the protection of Federal tax data provided by the Program
in the future.97

        There could be many reasons why the Credit originally claimed by the taxpayer
is different when the tax return is filed. For example, the taxpayer’s income could have
changed from the prior year when he or she applied for health coverage, or the
taxpayer’s family size may have increased or decreased from the prior year.

        TIGTA is concerned that the potential for refund fraud and related schemes
could increase as a result of processing ACA Premium Tax Credits unless the IRS
builds, implements, updates, and embeds ACA predictive analytical fraud models into
its tax filing process.

       The IRS has developed a plan to prevent, detect, and resolve fraud and abuse
during ACA tax return processing. The plan, when fully developed and implemented, is
designed to leverage third-party reporting from the Exchanges and new computer
analytical capability built into the Return Review Program. 98 The plan calls for the


95
   TIGTA, Audit No. 201320029, Review of the Internal Revenue Service’s Office of Safeguards, report
planned for April 2014.
96
   TIGTA, Audit No. 201340335, Affordable Care Act: Accuracy of the Income and Family Size
Verification and Advanced Premium Tax Credit Calculation, report planned for May 2014.
97
   TIGTA, Audit No. 201420302, Security Over Federal Tax Data at Health Insurance Exchanges, report
planned for August 2014.
98
   The Return Review Program is the key automated component of the IRS’s pre-refund initiative and will
implement the IRS’s new business model for a coordinated criminal and civil tax noncompliance approach
to prevent, detect, and resolve tax refund fraud, including refundable ACA premium tax credits.
                                                  28
development of the ACA Validation Service which will be used to identify improper
ACA-related refunds. The ACA Validation Service will be designed to perform
screening for improper refunds and will also identify fraudulent schemes that include
multiple returns. The IRS plans to rely on the Electronic Fraud Detection System
and/or the new Return Review Program to provide the systems to identify and prevent
ACA-related refund fraud.

       The applications for processing electronic and paper tax returns will need to be
modified before January 2015 in order to be able to use the new ACA Validation
Service to determine if a taxpayer claiming the Premium Tax Credit also purchased
insurance through the Exchanges or received an Advanced Premium Tax Credit in
2014, and if any math errors exist.

      TIGTA performed a system development audit of the Return Review Program 99
and determined that roles for program-level governance were not yet established for
the Return Review Program, and that the key role of system integrator was not
documented or clearly communicated. As a result, there is limited assurance that
Return Review Program systems development activities will achieve expected benefits
or meet time-sensitive business and information technology requirements for
addressing the IRS’s evolving tax refund fraud risks.

        ACA Provisions Impacting the Current 2014 Filing Season

        Several ACA tax-related provisions became effective for CY 2013 that affect
individuals with high incomes including the creation of a new net investment income
tax,100 and an increase in the employee-share of the Medicare tax (i.e., Hospital tax).101
The ACA also increased the income limit for qualifying medical and dental expenses
taken as an itemized deduction. In prior years, individuals could take an itemized
deduction for qualified medical and dental expenses that exceeded 7.5 percent of their
Adjusted Gross Income. Beginning in Calendar Year 2013, the qualifying expenses
must exceed 10 percent of Adjusted Gross Income.




99
   TIGTA, Ref No. 2013-20-063, Improvements Are Needed to Ensure Successful Development and
System Integration for the Return Review Program (July 2013).
100
    The ACA created a new tax that is equal to 3.8 percent of an individual’s net investment income for
the tax year or the excess of the individual’s Modified Adjusted Gross Income over $200,000 ($250,000
for married individuals filing jointly).
101
    The ACA increased the employee-share of the Medicare tax to 0.9 percent of an individual’s covered
wages in excess of $200,000 ($250,000 for married individuals filing jointly). The ACA also increased
the Medicare tax on self-employment income to 0.9 percent of an individual’s self-employment income
over $200,000 ($250,000 for married individuals filing jointly).
                                                  29
       Taxpayers will begin filing tax returns with these tax changes during the 2014
Filing Season. In addition to reprogramming its computer systems to properly reflect
these changes, the IRS had to issue guidance to taxpayers and tax return preparers
explaining each of these provisions and revise or develop new tax forms, instructions
and publications to reflect the tax law changes. We have a review ongoing to
determine if the IRS has correctly implemented these provisions, which includes
analyzing tax returns to ensure that they are accurately processed.102

IRS TAX GAP

        A serious challenge confronting the IRS is the Tax Gap, which is defined as the
difference between the estimated amount taxpayers owe and the amount they
voluntarily and timely pay for a tax year. The most recent gross Tax Gap estimate
developed by the IRS was $450 billion for TY 2006, which is an increase from the prior
estimate of $345 billion for TY 2001. The voluntary compliance rate103 decreased
slightly from 83.7 percent in 2001 to 83.1 percent in 2006. Figure 1 shows the IRS’s
latest Tax Gap Map illustrating the various components of the Tax Gap.




102
    TIGTA, Audit No. 201440014, 2014 Filing Season Implementation, report planned for September
2014.
103
    The voluntary compliance rate is an estimate of the amount of tax for a given year that is paid
voluntarily and timely.
                                                   30
                                        Figure 1




        The largest component (approximately 84 percent) of the Tax Gap is based on
taxpayers’ underreporting taxes due. The IRS addresses this gap by attempting to
identify questionable tax returns when they are received and processed and by
conducting examinations of tax returns filed to determine if there are any adjustments
needed to the information reported on the tax returns. Additional taxes are assessed
and collected.

       The next component (10 percent) of the Tax Gap is based on taxpayers
underpaying taxes due. The IRS addresses this gap by issuing notices and contacting
taxpayers to collect the delinquent taxes. The IRS is authorized to take enforcement
action, such as filing liens and seizing assets, to collect the taxes.

       The smallest component (6 percent) of the Tax Gap is based on taxpayers who
do not file tax returns when they are due. This component also may not have taxes
withheld or make estimated taxes. The IRS analyzes data from third parties (such as
Forms W-2 or Forms 1099) to identify taxpayers who should have filed a tax return, and
either prepares a substitute tax return or contacts the taxpayer to obtain the delinquent

                                           31
tax return.

       The scope, complexity, and magnitude of the international financial system also
presents significant enforcement challenges for the IRS. At the end of CY 2012, foreign
business holdings and investments in the United States were $25.5 trillion, an increase
of nearly $135 billion over CY 2011, while U.S. business and investments abroad grew
to over $21.6 trillion, an increase of nearly $1.5 billion during the same period. The
numbers of taxpayers conducting international business transactions continues to grow
as technological advances provide opportunities for offshore investments that were
once only possible for large corporations and wealthy individuals.

       As advancing technology continues to allow more cross-border transactions, the
IRS is increasingly challenged by a lack of information reporting on many of them. In
addition, the varying legal requirements imposed by different jurisdictions lead to the
creation of complex business structures that are not easy to understand, making the
determination of the full scope and effect of cross-border transactions extremely difficult.

       As this global economic activity increases, so do concerns regarding the
International Tax Gap.104 While the IRS has not developed an accurate and reliable
estimate of the International Tax Gap, non-IRS sources estimate it to be between
$40 billion and $133 billion annually. To address the International Tax Gap, the IRS
developed an international tax strategy plan with two major goals: (1) to enforce the law
to ensure that all taxpayers meet their obligations and (2) to improve service to make
voluntary compliance less burdensome.

       The IRS also currently faces the challenge of implementing the Foreign Account
Tax Compliance Act (FATCA).105 FATCA was enacted to combat tax evasion by U.S.
persons holding investments in offshore accounts. Under this Act, a U.S. taxpayer with
financial assets outside the United States will be required to report those assets to the
IRS. In addition, foreign financial institutions will be required to report to the IRS certain
information about financial accounts held by U.S. taxpayers or by foreign entities in
which U.S. taxpayers hold a substantial ownership interest. The IRS is developing a
new international system, the Foreign Financial Institution Registration System, to
support the requirements of FATCA. This system is intended to register foreign
financial institutions to assist in achieving the primary objective of FATCA which is the
disclosure of U.S. taxpayer foreign accounts. TIGTA reviewed the development of this


104
    Taxes owed but not collected on time from a U.S. person or foreign person whose cross-border
transactions are subject to U.S. taxation.
105
    Pub. L. No. 111-147, Subtitle A, 124 Stat 71, *96-116 (2010) (codified in scattered sections of 26
U.S.C.).
                                                    32
system and reported that the program management control processes did not timely
identify or communicate system design changes to ensure its successful deployment.106

        Concerns about the International Tax Gap have also led to increased
enforcement efforts on international information reporting requirements and increased
assessments of related penalties. For example, the IRS has automated the
penalty-setting process for the Form 5471, Information Return of U.S. Persons With
Respect to Certain Foreign Corporations, which has resulted in a total of $215.4 million
in late-filed Form 5471 penalty assessments during FYs 2009 through 2012.107

        In addition, the IRS established the International Campus Compliance Unit to
expand its audit coverage of tax returns with international aspects and to increase
compliance among international individual taxpayers. For FY 2011 through
March 13, 2013, the Campus Compliance Unit conducted almost 18,000 audits and
assessed approximately $36 million in additional tax. Despite its accomplishments,
TIGTA found that the Campus Compliance Unit has no specific performance measures
for its operations.108

       We reviewed enforcement revenue trends and noted that in FY 2007, the IRS
collected over $59 billion in taxes, penalties and interest, but the dollars collected
dropped over the next two years before increasing again in FY 2010. Subsequently,
dollars collected decreased to slightly more than $50 billion in FY 2012. While the IRS
did not track the reason for the increase in FY 2010, it did receive additional funds to
hire over 1,500 revenue officers from June 2009 to February 2010.

        One enforcement program whose resources have been significantly reduced is
the Automated Collection System (ACS). The ACS function attempts to collect taxes
through telephone contact with taxpayers before cases are assigned to revenue officers
who make in-person visits to collect delinquent taxes. The ACS has 16 call sites in the
Small Business and Self Employed Division and Wage and Investment Division.
However, ACS staff was reduced from 2,824 contact representatives in FY 2010 to
2,140 (24 percent) contact representatives in FY 2013. In addition, three call sites were
taken off-line in February 2013 to work Accounts Management inventory (other than
identity theft cases) because Accounts Management began devoting more of its



106
    TIGTA Ref. No. 2013-20-118, Foreign Account Tax Compliance Act: Improvements Are Needed to
Strengthen Systems Development for the Foreign Financial Institution Registration System (Sept. 2013).
107
    TIGTA, Ref. No. 2013-30-111, Systemic Penalties on Late-Filed Forms Related to Certain Foreign
Corporations Were Properly Assessed, but the Abatement Process Needs Improvement (Sept. 2013).
108
    TIGTA, Ref. No. 2013-30-113, The International Campus Compliance Unit Is Improving Individual Tax
Compliance (Sept. 2013).
                                                  33
resources to work the growing inventory of identity theft cases. This shift in resources
to Accounts Management was originally scheduled to continue for three months but was
subsequently extended through the end of FY 2013 and was still ongoing as of
February 2014. As a result of these combined reductions, the number of ACS contact
representatives in FY 2013 was 41 percent less than in FY 2010.

      Another impact on the ACS program is how resources are applied to its growing
workload. In FY 2013, the ACS prioritized answering telephone phone calls from
taxpayers over working delinquent accounts, which resulted in the ACS spending only
24 percent of its resources on working inventory and 76 percent on answering
taxpayers’ questions. The shift from working inventory has had consequences on the
ACS’s core mission of collecting delinquent taxes. In an ongoing audit, we reviewed
ACS business results from FY 2010 through FY 2013 and determined:

              New inventory is outpacing closures, so the inventory is growing.
              Inventory is taking longer to close, and the cases are older.
              When cases are closed, more are closed as currently not collectible.
              Fewer enforcement actions are taken.
              More, and older, cases are being transferred to the growing inventory of
               cases available to be assigned Collection Field personnel.109

        Leveraging external resources, such as whistleblowers, can help improve tax
compliance. The IRS Whistleblower Program also plays an important role in reducing
the Tax Gap and maintaining the integrity of a voluntary tax compliance system.
However, TIGTA reported that the program continued to have internal control
weaknesses when processing whistleblower claims. For example, information captured
from multiple systems and entered into a single inventory control system was potentially
inaccurate, and the quality review process for the new inventory system was not
sufficient to ensure that claims were accurately controlled. Additionally, TIGTA
determined that timeliness standards for processing claims were not sufficient. Without
adequate oversight of the Whistleblower Program, the IRS is not as effective as it could
be in responding timely to tax noncompliance issues.110




109
    TIGTA, Audit No. 201330017, Review of the Automated Collection System Inventory Management,
report planned for May 2014.
110
    TIGTA, Ref. No. 2012-30-045, Improved Oversight Is Needed to Effectively Process Whistleblower
Claims (Apr. 2012).
                                                 34
      Modernizing information systems could potentially allow the IRS to post more
comprehensive tax return information to its computer systems, which could facilitate the
examination process and expedite taxpayer contacts for faster resolution.

        The IRS considers the Customer Account Data Engine 2 (CADE 2) program to
be critical to its mission and it is the IRS’s most important information technology
investment. TIGTA reported that the implementation of CADE 2 daily processing
allowed the IRS to process tax returns for individual taxpayers more quickly by replacing
existing weekly processing.111 The CADE 2 system also provides for a centralized
database of individual taxpayer accounts, which will allow IRS employees to view tax
data online and provide timely responses to taxpayers once it is implemented. The
IRS’s modernization efforts also include developing computer programs to conduct
predictive analytics to reduce refund fraud.112 The successful implementation of the
IRS’s modernization program should significantly improve service to taxpayers and
enhance Federal tax administration.

       Simplifying the tax code could help taxpayers understand and voluntarily comply
with their tax obligations and limit opportunities for tax evasion.

       Finally, penalties are an important tool because they discourage taxpayer
behavior that contributes to the Tax Gap. Congress provided numerous penalty
provisions in the Internal Revenue Code that the IRS can use to help remedy the
noncompliance that contributes to the Tax Gap. The IRS can assess accuracy-related
penalties for negligence, substantial understatement of income tax, or substantial
valuation misstatement. The IRS estimated that the underreporting of tax contributed
$376 billion (84 percent) of the $450 billion total gross Tax Gap, including $235 billion
from individual income taxes. To deter this type of behavior, the IRS reported during
FY 2011 it assessed over 500,000 accuracy-related penalties, involving over $1 billion
against individuals.

MANAGEMENT ACTIONS IN RESPONSE TO PRIOR REPORTED ISSUES

      TIGTA follows up regularly on management actions in response to
recommendations in our reports. Two notable examples that we are currently following
up on are the reports on Exempt Organizations and IRS spending on conferences.



111
    TIGTA, Ref. No. 2012-20-122, Customer Account Data Engine 2 System Requirements and Testing
Processes Need Improvements (Sep. 2012).
112
    Computer models that analyze extremely large quantities of data to seek out data patterns and
relationships that could indicate potential tax fraud schemes.
                                                35
TIGTA previously reported113 that the IRS used inappropriate criteria for selecting and
reviewing applications for tax-exempt status. This resulted in substantial delays in
processing certain applications and unnecessary information requests being issued to
certain organizations.

        The IRS Commissioner reported in January 2014 that the IRS completed action
on all nine recommendations contained in our May 2013 report. TIGTA is currently
assessing the actions the IRS has taken in response to our recommendations.114

      In its response to our report on conference spending,115 IRS management
agreed with all of our recommendations. Since the issuance of our report, the IRS has
addressed many of our recommendations with interim guidance that it plans to formalize
through updates to the Internal Revenue Manual.116 Once the IRS finalizes its
guidance, TIGTA plans to conduct a follow-up audit to determine if controls
implemented by the IRS address the recommendations we made.

       We at TIGTA take seriously our mandate to provide independent oversight of the
IRS in its administration of our Nation’s tax system. As such, we plan to provide
continuing audit coverage of the IRS’s efforts to operate efficiently and effectively and
investigate any instances of IRS employee misconduct. I hope my discussion of some
of the major challenges facing the IRS assists Congress in ensuring accountability
over the IRS.

     Chairman Crenshaw, Ranking Member Serrano, and Members of the
Subcommittee, thank you for the opportunity to share my views.




113
    TIGTA, Ref. No. 2013-10-053, Inappropriate Criteria Were Used to Identify Tax-Exempt Applications
for Review (May 2013).
114
    TIGTA, Audit No. 201410009, Status of Actions to Improve Identification and Processing of
Applications for Tax-Exempt Status – Follow-Up.
115
    TIGTA, Ref. No. 2013-10-037, Review of the August 2010 Small Business/Self-Employed Division’s
Conference in Anaheim, California (May 2013).
116
    The Internal Revenue Manual is the primary official source of IRS instructions to staff that relate to the
administration and operation of the IRS.
                                                      36
                           J. Russell George
                           Treasury Inspector General for Tax
                           Administration
                           Following his nomination by President George W. Bush, the
                           United States Senate confirmed J. Russell George in
                           November 2004, as the Treasury Inspector General for Tax
                           Administration. Prior to assuming this role, Mr. George
                           served as the Inspector General of the Corporation for
                           National and Community Service, having been nominated to
                           that position by President Bush and confirmed by the Senate
in 2002.

A native of New York City, where he attended public schools, including Brooklyn
Technical High School, Mr. George received his Bachelor of Arts degree from Howard
University in Washington, DC, and his Doctorate of Jurisprudence from Harvard
University's School of Law in Cambridge, MA. After receiving his law degree, he
returned to New York and served as a prosecutor in the Queens County District
Attorney's Office.

Following his work as a prosecutor, Mr. George joined the Counsel's Office in the White
House Office of Management and Budget where he was Assistant General Counsel. In
that capacity, he provided legal guidance on issues concerning presidential and
executive branch authority. He was next invited to join the White House Staff as the
Associate Director for Policy in the Office of National Service. It was there that he
implemented the legislation establishing the Commission for National and Community
Service, the precursor to the Corporation for National and Community Service. He then
returned to New York and practiced law at Kramer, Levin, Naftalis, Nessen, Kamin &
Frankel.

In 1995, Mr. George returned to Washington and joined the staff of the Committee on
Government Reform and Oversight and served as the Staff Director and Chief Counsel
of the Government Management, Information and Technology subcommittee (later
renamed the Subcommittee on Government Efficiency, Financial Management and
Intergovernmental Relations), chaired by Representative Stephen Horn. There he
directed a staff that conducted over 200 hearings on legislative and oversight issues
pertaining to Federal Government management practices, including procurement
policies, the disposition of government-controlled information, the performance of chief
financial officers and inspectors general, and the Government's use of technology. He
continued in that position until his appointment by President Bush in 2002.

                                           37
In addition to his duties as the Inspector General for Tax Administration, Mr. George
serves as a member of the Recovery Accountability and Transparency Board, a non-
partisan, non-political agency created by the American Recovery and Reinvestment Act
of 2009 to provide unprecedented transparency and to detect and prevent fraud, waste,
and mismanagement of Recovery funds. There, he serves as chairman of the
Recovery.gov committee, which oversees the dissemination of accurate and timely data
about Recovery funds.

Mr. George also serves as a member of the Integrity Committee of the Council of
Inspectors General for Integrity and Efficiency (CIGIE). CIGIE is an independent entity
within the executive branch statutorily established by the Inspector General Act, as
amended, to address integrity, economy, and effectiveness issues that transcend
individual Government agencies; and increase the professionalism and effectiveness of
personnel by developing policies, standards, and approaches to aid in the
establishment of a well-trained and highly skilled workforce in the offices of the
Inspectors General. The CIGIE Integrity Committee serves as an independent review
and investigative mechanism for allegations of wrongdoing brought against Inspectors
General.




                                          38
